CERTIFICATE OF COMPLIANCE

No. 19-454

Donald J. Trump, President of the United States, et al.,
Petitioners
v.
Commonwealth of Pennsylvania, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus Curiae
Public Citizen contains 7921 words, excluding the parts of the brief that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 8, 2020.
/s/ Nandan M. Joshi

